U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

August 3, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Department of Justice v. House Committee on the Judiciary, No. 19-1328
Dear Mr. Harris:
Certiorari was granted in the above-captioned matter on July 2, 2020, and petitioner’s brief
on the merits is currently due on August 17, 2020.
Because of scheduling difficulties and the press of other cases, the parties respectfully
request, under Rule 30.4 of the Rules of this Court, that the time within which to file petitioner’s
brief (and the joint appendix or a motion to dispense therewith) be extended to and including
August 31, 2020, and that the time within which to file respondent’s brief be extended a
corresponding amount of time, to and including October 14, 2020. If those extensions are granted,
the reply brief would be due on November 13, 2020.
Counsel for petitioner and respondent have agreed on the schedule proposed above.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

19-1328
DEPARTMENT OF JUSTICE
HOUSE COMMITTEE ON THE JUDICIARY

DOUGLAS N. LETTER
U.S. HOUSE OF REPRESENTATIVES
219 CANNON HOUSE OFFICE BUILDING
WASHINGTON, DC 20515-6532
202-225-9700
DOUGLAS.LETTER@MAIL.HOUSE.GOV

